CERTIFICATE OF WORD COUNT

Pursuant to Rule 33.1 of the Rules of this Court, I certify that the
accompanying Petition for Writ of Certiorari which was prepared using Century
Schoolbook 12-point font typeface, contains 8,940 words, excluding the parts of the
document that are exempted by Rule 33.1(d). This certificate was prepared in reliance
on the word-count function of the word-processing system (Microsoft Word) used to
the prepare the document.

I declare under penalty of perjury that the forgoing is true and correct.

Respectfully Submitted,
CHAPMAN LAW GROUP

Dated: Tlee/t/ ZZ

Ronald W. Chapman II, LL.M.

1441 W. Long Lake Rd., Ste. 310
Troy, MI 48098

T: (248) 644-6326

F: (248) 644-6324
rwchapman@chapmanlawgroup.com

Counsel for Petitioner-Appellant
George P. Naum III

36
